Farm Credit Administration                                      Office of Inspector General
                                                                1501 Farm Credit Drive
                                                                McLean, Virginia 22102-5090




                                          System Review Report

January 16, 2013

Mr. Philip Heneghan
Inspector General
U.S. International Trade Commission
500 E Street SW
Washington, DC 20436

Dear Mr. Heneghan:

We have reviewed the system of quality control for the audit organization of the U.S. International
Trade Commission (USITC) Office of Inspector General (OIG) in effect for the year ended September 30,
2012. A system of quality control encompasses the OIG’s organizational structure and the policies
adopted and procedures established to provide it with reasonable assurance of conforming with
Government Auditing Standards. The OIG is responsible for designing a system of quality control and
complying with it to provide the OIG with reasonable assurance of performing and reporting in
conformity with applicable professional standards in all material respects. Our responsibility is to
express an opinion on the design of the system of quality control and the OIG’s compliance therewith
based on our review.

Our review was conducted in accordance with Government Auditing Standards and guidelines
established by the Council of the Inspectors General on Integrity and Efficiency (CIGIE). During our
review, we interviewed OIG personnel and obtained an understanding of the nature of the OIG audit
organization, and the design of the OIG’s system of quality control sufficient to assess the risks implicit
in its audit function. We selected engagements and administrative files to test for conformity with
professional standards and compliance with the OIG’s system of quality control. The selected
engagements represented a reasonable cross-section of the OIG’s audit organization, with emphasis on
higher-risk engagements. The enclosure to this report identifies the engagements that we reviewed.
Prior to concluding the review, we reassessed the adequacy of the scope of the peer review procedures
and met with OIG management to discuss the results of our review. We believe that the procedures we
performed provide a reasonable basis for our opinion.

In performing our review, we obtained an understanding of the system of quality control for the OIG’s
audit organization. In addition, we tested compliance with the OIG’s quality control policies and
procedures to the extent we considered appropriate. These tests covered the application of the OIG’s
policies and procedures on selected engagements. Our review was based on selected tests; therefore, it
would not necessarily detect all weaknesses in the system of quality control or all instances of
noncompliance with it.
                                                                                                              2


There are inherent limitations in the effectiveness of any system of quality control, and therefore
noncompliance with the system of quality control may occur and not be detected. Projection of any
evaluation of a system of quality control to future periods is subject to the risk that the system of quality
control may become inadequate because of changes in conditions, or because the degree of compliance
with the policies or procedures may deteriorate.

In our opinion, the system of quality control for the audit organization of the OIG in effect for the year
ended September 30, 2012, has been suitably designed and complied with to provide the OIG with
reasonable assurance of performing and reporting in conformity with applicable professional standards
in all material respects. Federal audit organizations can receive a rating of pass, pass with deficiencies,
or fail. The OIG has received a peer review rating of pass. As is customary, we have issued a letter of
comment dated January 16, 2013, that sets forth findings and recommendations that were not
considered to be of sufficient significance to affect our opinion expressed in this report.

In addition to reviewing the OIG’s system of quality control to ensure adherence with Government
Auditing Standards, we applied certain limited procedures in accordance with guidance established by
the CIGIE related to the OIG’s monitoring of engagements performed by an Independent Public
Accountant (IPA) under contract where the IPA served as the principal auditor. It should be noted that
monitoring of engagements performed by an IPA is not an audit and therefore is not subject to the
requirements of Government Auditing Standards. The purpose of our limited procedures was to
determine whether the OIG had controls to ensure IPAs performed contracted work in accordance with
professional standards. However, our objective was not to express an opinion and, accordingly, we do
not express an opinion on the OIG’s monitoring of work performed by IPAs.

We appreciate the courtesy and cooperation extended to us throughout this activity.

Respectfully,


Elizabeth M. Dean
Acting Inspector General
